No. 20-599

ln

upreme Court of tbe tiniteb &tato
HIRSH SINGH, PRO SE.,
Petitioner,
HONORABLE PHILIP D. MURPHY, IN HIS OFFICIAL CAPACITY
AS GOVERNOR OF NEW JERSEY, HONORABLE TAHESHA WAY,
IN HER OFFICIAL CAPACITY AS NEW JERSEY SECRETARY OF
STATE, ET AL., .
Respondents.

On Petition For Writ Of Certiorari
To The Supreme Court Of New Jersey

REPLY TO BRIEF IN OPPOSITION

RECEIVED
FEB - 2029
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES
CONSTITUTIONAL and OTHER AUTHORITIES
ARGUMENT
I. RESPONDENTS RE-FRAME THE QUESTION WITH
AN INTENTIONAL ERROR - NOTHING IN THE LAW
PERTAINING TO THE EMERGENCY POWERS OF
THE GOVERNOR TRANSFERS THE POWERS OF
THE LEGISLATIVE BRANCH TO THE GOVERNOR
II.RESPONDENTS PROVIDE WRONG DATES FOR
PETITIONER'S FILINGS WITH THE JUDICIARY AND
FOR PETITIONER RAISING OBJECTIONS IN COURT
DOCUMENTS BASED ON THE ELECTIONS CLAUSE
III.THE ARGUMENT ON LACHES AND ESTOPPEL ARE
NOT MATTERS FOR THIS COURT AS THE LOWER
COURTS DID NOT RULE ON THEM, BUT EVEN IF
THEY WERE, THE RULING SHOULD HAVE BEEN
IN FAVOR OF PETITIONER
IV.IT IS NEVER TOO LATE TO VOID AN ILLEGAL
ELECTION; THERE ARE PRECEDENTS OF
ELECTIONS BEING VOIDED AFTER THE RESULTS
V.THE POST OFFICE DOES NOT HAVE TO BE A
DEFENDANT TO RULE ON THE BEHAVIOR OF
THE STATE OF NEW JERSEY
VI.THIS CASE IS OF NATIONAL IMPORTANCE AND IS
AN EXCELLENT VEHICLE TO RESOLVE THE
ISSUES RAISED

CONCLUSION

APPENDIX

Iv
2

2

3

4

6

7

8

9

Verified Petition in Support of Application for
Recount and Recheck in All Districts of Morris
County For The Republican Primary Election
For The Office of United States Senator
For New Jersey, Superior court of New Jersey
Morris County (July 24th)

APP.10

Order Consolidating All Recount Petitions
Filed Statewide, in New Jersey Superior Court,
Morris County(September 9, 2020)

APP.11

Verified Petition to Contest The Republican
Primary Election For The Office Of United
States Senator For New Jersey to the Superior
Court, Appellate Division (September 1,2020)

APP.12

Order Consolidating All Recount Petitions
and Election Contests Filed Statewide,
Chief Justice of New Jersey Supreme Court,
(September 23, 2020)

APP.13

iv
TABLE OF AUTHORITIES

Cases
Arizona State Legislature v. Arizona. Independent
Redistricting Commission, 576 U.S. 787 (2015)
USA Petroleum Corp. v. U.S., 821 F.2d 622, 627 (Fed
Cir. 1987)
American Electronic Lab., Inc. v. U.S., 774 F.2d 1110,
1113 (Fed. Cir. 1985)
Broad Avenue Laundry & Tailoring v. U.S., 681 F.2d
746, 749 (Ct. Cl. 1982)
Emeco Indus., Inc. v. U.S. 485 F.2d 652, 657 (Ct.C1.
1973)
Manloading & Mgt. Assoc., Inc. v. U.S., 461 F.2d 1299,
1303 (Ct. Cl. 1972)
Marks v. Stinson, 19 F.3d 873 (3d Cir. 1994)
In re Contest of November 8, 2011 General Election of
Office of N.J. General Assembly, Fourth Legislative Dist.,
427 N.J. Super. 410, 486 (N.J. Super. 2012)
In re Contest of November 8, 2011 General Election of
Office of N.J. General Assembly, Fourth Legislative Dist.,
427 N.J. Super. 410, 418 (N.J. Super. 2012)
New Jersey Democratic Party, Inc. v. Samson, 814 A.2d
1028, (N.J. 2002) 175 N.J. 178

Page

5
5
5
5

6
6
6
6,7

V

CONSTITUTIONAL and OTHER AUTHORITIES
Article 1, Section 4 of the Unites States Constitution..
Executive Order 120 of Governor Phil Murphy
Executive Order 144 of Governor Phil Murphy
Executive Order 176 of Governor Phil Murphy
N.J.S.A. 26:13-1 et seq.
N.J.S.A. App. A:9-33 et seq.
N.J.S.A. 38A:3-6.1
N.J.S.A. 38A:2-4
N.J.S.A. 19:29-3
Executive Orders 120, 144, and 177

1,4
5
5
5
2
2
2
2
5
5

1
This case calls upon the Court to resolve two very important issues of
national importance: Whether the Governor can unilaterally usurp
the power of the legislature to set the time and manner of conducting
elections for federal offices specified in Article 1, Section 4 of the
United States Constitution without any law transferring such powers
to the Governor, and whether the use of the United States Postal
Service (USPS) by the state government to conduct an election
process makes it incumbent on all participants in charge of the
election process including the state government to ensure that proper
safeguards are in place so that the Freedom of Information Act is not
violated.
Instead of addressing these issues, the Respondents try to reframe the question in a deceptive manner as though the law explicitly
grants the power of the legislative branch to the governor, deceptively
provide a wrong and later date for Petitioner approaching the
judiciary (both for the Elections Clause claim as well as other claims)
and that Petitioner approached the judiciary only after the election
result when in fact the Petitioner first approached the judiciary to
dispute the election long before the election result was certified, claim
that New Jersey's laws related to the deadline that the Petitioner
meticulously followed should be rendered moot, and that it is too late
to declare the election null and void.
Respondents also make the fantastic claim that the US Supreme
Court lacks jurisdiction to resolve the issues raised and that these
issues do not have any national importance when in fact it is the
Supreme Court and not the state court that should rule on
Constitutional issues, and the issue raised in this case is of utmost
importance to the country. This lawsuit is also an excellent vehicle to
resolve the question of whether the legislative branch specified in the
Election Clause includes the Executive branch even if the State
Constitution explicitly describes them as separate entities that cannot
usurp each other's powers.

2
ARGUMENT

I.
RESPONDENTS RE-FRAME THE QUESTION WITH AN
INTENTIONAL ERROR - NOTHING IN THE LAW PERTAINING TO
THE EMERGENCY POWERS OF THE GOVERNOR TRANSFERS THE
POWERS OF THE LEGISLATIVE BRANCH TO THE GOVERNOR
Respondents assert but do not quote a single word from the
text of New Jersey's laws that supports their assertion that the laws
related to the emergency powers transfer the powers of the
legislature to make laws related to the elections to the Governor.
Respondents do not quote anything because there is nothing they
can quote.
Nothing in N.J.S.A. 26:13-1 et seq., N.J.S.A. App. A:9-33 et seq.,
N.J.S.A. 38A:3-6.1, or N.J.S.A. 38A:2-4 can be construed as either
transferring the power of the legislature to the Governor in times of
emergencies or granting the power to the Governor to unilaterally
frame election laws for the state of New Jersey. As already described
in Petitioner's Writ for Certiorari, these laws contain an enumerated
list of specific tasks within the Executive branch that the Governor is
authorized to execute.
The Writ of Certiorari also listed down the relevant parts of
the New Jersey Constitution describing the manner of lawmaking
and forbidding one branch of the government from taking over the
powers of another branch.

3
II. RESPONDENTS PROVIDE WRONG DATES FOR
PETITIONER'S FILINGS WITH THE JUDICIARY AND FOR
PETITIONER RAISING OBJECTIONS IN COURT DOCUMENTS
BASED ON THE ELECTIONS CLAUSE
Respondents deceptively try to claim that the Petitioner waited
for the results of the election before challenging the election, and also
wrongly claim that the argument related to the Elections Clause was
raised for the first time when the Complaint was amended on
September 14, 2020.
First, Petitioner objected to the election to the Executive
branch as early as July 17. In fact, the state of New Jersey continued
to accept ballots until July 14, 2020. Thus, Petitioner acted within
three days of the completion of the election in objecting to the
election process. Petitioner filed the first challenge in the judiciary on
July 24, 2020 as already described in the writ for certiorari. This
filing with the Morris County court is reproduced in Appendix 10 1
where the date of filing can be verified. It is the cases filed on July 24
in 21 different counties that were consolidated by first the Superior
Court of Morris County and then the New Jersey Supreme- Court into
one case and morphed into the instant case. See the orders
consolidating the cases in App. 11. and App. 13. Respondents are
clearly wrong about the date of origin of this case which goes back to
July 24, 2020, long before the results of the elections had been
announced.
The result of the election was known only on August 20, 2020,
and in this very close race (using the official numbers), Petitioner
could have emerged the winner. It is thus clear that the Petitioner's
only interest in filing these objections long before the election results
were known was fairness, following the rule of law, and ensuring
integrity in the electoral process.

4
Additionally, contrary to the claims of Respondents, in the Complaint
filed on September 1, 20202, the section containing the factual
background clearly states:
This election should be set-aside because it was
illegally created using State Executive Powers where
the U.S. Constitution Article 1 Section 4 clearly states
"the times the places and manners shall be prescribed
in each state by the legislature" meaning the NJ
Assembly and NJ Senate (Arizona State Legislature v
Arizona Independent Redistricting Committee.
[20151) The guidelines to conduct a Federal Election
is vested in the State's Legislature. The US Senate
primary election held on July 7th has been
illegitimately certified with incomplete and fraudulent
results.
See App. 12, p. 2.
Thus Respondents are wrong when they assert that the argument
related to the Elections Clause was raised for the first time only when
the Complaint was amended on September 14..

III. THE ARGUMENT ON LACHES AND ESTOPPEL ARE NOT
MATTERS FOR THIS COURT AS THE LOWER COURTS DID NOT
RULE ON THEM, BUT EVEN IF THEY WERE, THE RULING SHOULD
HAVE BEEN IN FAVOR OF PETITIONER
The argument by Respondents on estoppel and laches are not
matters for the Supreme Court in this case as the lower court ruled
on the Elections Clause and the Freedom of Information Act and not
their laches and estoppel claims. The damage caused by those wrong
rulings will not be reversed if this Court does not address them.
Respondents' argument on laches is also a bizarre one as it
amounts to asking that the courts nullify the law related to the
deadline for filing cases related to elections. September 1 was the
deadline according to state law N.J.S.A. 19:29-3 for filing such an

Appendix numbers in this Reply continue after the last number used in the Writ of Certiorari.
Although stamped September 2 by the court, it was submitted by the Petitioner to the court in a
firric.lir marin4:6r nn Cr.intAtrihr.r 1 wilinb xarao fkg. rlc>arllina nrg.att.ri by. MT

1QVIT

5
election contest petition, and Petitioner met that deadline. It was also
the State that is responsible for endless delays as it was neither
responsive nor showed a sense of urgency to resolve matters in a
timely manner in the judiciary.
The facts that the Petitioner started objecting to the Secretary ,
of State as early as July 17 and had sought information through an
Open Records request from them as early as July 12 even before the
period when the State was accepting ballots had ended, and opposed
the elections as early as July 24 even though the final results were
certified only on August 20, belie the claim that the Petitioner took
advantage of the election and complained only because he "lost."
Thus the claim of estoppel is also blown out of the water. See App. 12,
P. 4
Additionally, all the traditional principles of estoppel actually favor
the Petitioner. These principles are (i) the government knew the
facts (ii) the government intended that its conduct be acted upon or
be acted in such a way that the Petitioner had a right to believe the
government so intended (iii) the Petitioner was not aware of the true
facts (iv) the Petitioner detrimentally relied upon the government's
conduct. See USA Petroleum Corp. v. U.S., 821 F.2d 622, 627 (Fed. Cir.
1987); American Electronic Lab., Inc. v. U.S., 774 F.2d 1110, 1113
(Fed. Cir. 1985); Broad Avenue Laundry & Tailoring v. U.S., 681 F.2d
746, 749 (Ct. Cl. 1982); Emeco Indus., Inc. v. U.S. 485 F.2d 652, 657
(Ct.C1. 1973); Manloading & Mgt Assoc., Inc. v. U.S., 461 F.2d 1299,
1303 (Ct. Cl. 1972).
It should be noted that not only the Petitioner, but even the
New Jersey legislature had been misled by the Governor through the
wording used in Executive Orders 120, 144, and 177, into believing
that existing laws permitted the Governor to take over the functions
of the legislature and rule by issuing Executive Orders. Curiously,
Respondents themselves admit to this point when they bring up the
issue of Executive Order 177 (EO 177) which is unrelated to this case
and describe how the legislature woke up to reality and passed a law
on August 26, 2020, rendering EO 177 moot. Clearly, the traditional
principles of estoppel favor the Petitioner. Additionally, within six
days of this action, Petitioner raised it in the court.3
This is remarkably swift action by the Petitioner who is a Pro Se litigant. This court is
3
already aware of the fact that Respondents have taken months to file a response, that too an
error-filled one, but somehow expect Petitiofier who is Mt a professional attorney to have
known, long before the election took place, points of law that even professional lawyers and
lawmakers did not know until late August 2020 when they corrected course. The fact that the
Petitioner was misled is also the fault of the Respondent whose Executive Order misled everyone
inehirlina the Petitioner.

6
IV.
IT IS NEVER TOO LATE TO VOID AN ILLEGAL ELECTION;
THERE ARE PRECEDENTS OF ELECTIONS BEING VOIDED AFTER
THE RESULTS
It is also not too late to set aside the election. In Marks v.
Stinson, the Third Circuit Court of Appeals set aside an election long
after the results had been announced and the "winner" had taken
office. See Marks v. Stinson, 19 F.3d 873 (3d Cir. 1994).
New Jersey's judiciary too has a history of ruling and setting
aside elections after they had been conducted, and also making
changes to elections very close to the election date. In a previous
lawsuit, New Jersey's Superior Court ruled, "New Jersey's election
laws require that respondent's certificate of election be annulled,
that the election be set aside, and that a new election be held in
November 2012." In re Contest of November 8, 2011 General Election
of Off►`ce of N.J. General Assembly, Fourth Legislative Dist., 427 N.J.
Super. 410, 486 (N.J. Super. 2012). In that case, even though the
challenge was brought after the election, the court ruled:
Respondent also argues that petitioner Shelley Lovett's
post-election challenge comes too late and seeks the
wrong remedy... Although petitioner's challenge did
not come too late, she does request the wrong remedy.
(emphasis added)
In re Contest of November 8, 2011 General Election of Office of N.J.
General Assembly, Fourth Legislative Dist., 427 N.J. Super. 410, 418
(N.J. Super. 2012).
Likewise, on October 2, 2002, very close to the election date (even
closer to the election date in comparison to the date of Petitioner's
Complaint to the judiciary) the Supreme Court of New Jersey ruled
that there was sufficient time to replace the name of Robert G.
Torricelli by the name of a candidate to be selected by the
Democratic Party. In its opinion, the Supreme Court stated:

7
On the record before the Court, and with due regard to the
representations of the Attorney General and counsel for
the county clerks at oral argument, we find that there is
sufficient time before the general election to place a new
candidate's name on the ballot. In respect of absentee
voters, particularly military and civilian New Jersey
citizens dwelling abroad, we are informed that of
approximately 19,000 absentee ballots authorized as of
October 2, 2002, some 1,700 had been mailed and few had
been returned. We are also informed that if the printing of
new absentee ballots was expedited, most could be
prepared and mailed within five business days. We
understand that express mailing, both outgoing and
return, is available to and from most overseas locations,
and that if a source of funding for those activities is
available, they can be carried out expeditiously.
New Jersey Democratic Party, Inc. v. Samson, 814 A.2d 1028, (N.J.
2002) 175 N.J. 178

The same opinion also states that the printing of ballots was stayed
by the court very close to the election date, and closer to the election
date in comparison to the Petitioner's filing date in this case. On
September 30, 2002, Senator Robert G. Torricelli announced his
withdrawal as the New Jersey Democratic Party's candidate for the
United States Senate in the November 5, 2002, general election, and
on October 1, 2002, the trial court issued an Order to Show Cause
and stayed the printing of the ballots for the general election. Id.

V.
THE POST OFFICE DOES NOT HAVE TO BE A DEFENDANT
TO RULE ON THE BEHAVIOR OF THE STATE OF NEW JERSEY

Petitioner does not seek any ruling against USPS or any
remedy to be executed by them. Clearly, USPS does riot have to be
named a Defendant in this case.

8
Petitioner seeks a judgment against the State officials of New
jersey which used USPS without first ensuring that such use would
be in compliance with federal laws. Unlike the case of the previously
existing system . of absentee ballots, which is protected by both
federal and state laws, and is based on the federal and state
governments working in tandem to ensure compliance with federal
laws, E0 144 and actions based on it are in blatant violation of the
Freedom of Information Act, a violation for which Respondents bear
some responsibility.
VI. THIS CASE IS OF NATIONAL IMPORTANCE AND IS AN
EXCELLENT VEHICLE TO RESOLVE THE ISSUES RAISED

Respondents provide a curious argument that the importance
of this case stems from whether or not a case is published by the
lower court instead of assessing the importance of a potential
Supreme Court ruling on the case! Their argument amounts to the
claim that no case that is unpublished is appealable in the Supreme
Court. The most ironical part of their argument is that they use the
unpublished decision of the lower court that is being appealed in this
case as an established precedent that must be accepted by this Court!
That is, not only do they claim that an unpublished case is
unappealable and then go on to shoot themselves in the foot by
treating the unpublished opinion as the established precedent, they
also indulge in circular reasoning by asking that this Court treat the
very decision that is being appealed as an opinion set in stone and
use that assumption to conclude that the decision being appealed
was a correct one!
In reality, this case is of great national importance not only
because it could resolve conflicts arising from multiple
interpretations of the Elections Clause and provide clarity to the use
of federal entities such as the Postal Service by state government, but
it could also determine the composition of the Senate which now has
fifty Republicans and fifty Democrats. Given the fine balance, it is
even more important that the Senators be legitimately elected
representatives.

CONCLUSION

Therefore Petitioner requests that this Court grants certiorari.

Respectfully submitted,
Hirsh Singh,
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

